BLANKROME
CELEBRATING /5*"

1700 PNC Center
201 East Fifth Street | Cincinnati, OH 45202
blankrome.com

Phone: (513) 362-8701
Fax: (513) 362-8702
Email: Cioffi@BlankRome.com

June 17, 2021

ViA EMAIL AND ExpRESS MAIL,

Mr. Scott S. Harris

Supreme Court of the United States
Office of the Clerk

1 First Street, NE

Washington, DC 20543

Re: John Doe 7, et al.
v. Chiquita Brands International, Inc.
No. 20-1599

Dear Mr. Harris:

Thank you for your letter of June 8, 2021 regarding the Court’s request for a response to
the petition for a writ of certiorari in the above case by July 8, 2021. As Respondent, Chiquita
Brands International, Inc. (“Chiquita”) did not anticipate filing a response to the petition, the
undersigned counsel did not set aside time in his busy schedule to prepare one. Due to the press
of various other projects, motions, briefs, and hearings on behalf of Chiquita and other clients,
and in accordance with Rule 30.4, Respondent Chiquita respectfully requests a 30-day extension
for filing their response to the petition for certiorari.

Sincerely,
Michael L. Cioffi

ce: Kevin K. Russell

Blank Rome LLP | blankrome,com
